                                          I
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      A COMPARISON OF
  ALBUTEROL SULFATE PRICES
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office under the direction of Robert A. Vito, Regional Inspector General.


PHILADELPHIA REGIONAL STAFF                         HEADQUARTERS STAFF

Linda M. Ragone, Project Leader                     Mary Beth Clarke, Program Specialist

Robert Katz, Program Analyst

Nancy Molyneaux, Program Analyst

Cynthia Hansford, Program Assistant




To obtain copies of this repo~ please call the PhiladelphiaRegional Office at (8(M))531-9562.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      A COMPARISON OF

  ALBUTEROL SULFATE PRICES





               @ sERVICES
          $$            %--

         $


        $                      JUNE   GIBBS BROWN
        ~                      Inspector   General
        s
        ‘3 $

          ‘+++                          JUNE 1996
             %d~~
             >                        0EI-03-94-O0392
              EXECUTIVE                         SUMMARY

PURPOSE

To assess the appropriateness of the amount Medicare allows for albuterol sulfate, a
prescription inhalation drug used innebulizers.

BACKGROUND

A nebulizer is a type of durable medical equipment    (DME) through which

prescription drugs are administered for inhalation therapy. Patients with conditions

such as asthma or emphysema may require treatment that involves the use of a

nebulizer. The nebulizer is used by placing an inhalation prescription drug into its

reservoir which is then converted into a fine spray by the power source and inhaled by

the user.


One prescription drug that is commonly used for inhalation therapy with nebulizers is

albuterol sulfate (0.083% concentration). Between January of 1994 and February of

1995, Medicare allowed $182 million for this drug, 68 percent of the $269 million in

total Medicare allowances for all nebulizer drugs.


We surveyed pharmaceutical buying groups, mail-order pharmacies, and retail

pharmacy stores and compared their prices for generic versions of albuterol sulfate to

the amount that Medicare allows.


FINDINGS

Many phamacies surveyedchargedcustornemlessfor genericalbuterolsu@atethan
Mkdicarealk9wed

A customer would pay less than Medicare for albuterol sulfate in more than half of
the retail stores surveyed and in all of the mail-order pharmacies contacted. Fifty-five
percent of retail pharmacy stores (60 of 109) charged less for generic versions of
albuterol sulfate than the $0.43 per milliliter that Medicare allowed. Four mail-order
pharmacies charged between 2 and 12 percent less than Medicare reimburses, and one
charged 53 percent less.

AU jive buyinggroupsSLUVeyedhad negotiatedpricessubstantial~lowerthunMedicare
reimbumementfor albuterolsulfate.

The generic drug prices the five buying groups negotiated ranged from 56 to 70
percent less than the $0.43 Medicare allowed per milliliter of albuterol sulfate. The
pharmacies that are members of these buying groups purchase albuterol sulfate at
these lower prices. Therefore, the average wholesale price used to determine



                                            i
Medicare’s allowance for albuterol sulfate was significantly higher than the wholesale
price paid by thousands of the buying groups’ member pharmacies.

RECOMMENDATION

We believe the findings of this report complement and reinforce those of our earlier
report, Medicare Payments for Nebulizer Drugs, by providing evidence that Medicare’s
allowance for nebulizer drugs may be inappropriately high. In the earlier report, we
found that Medicaid State agencies were reimbursing less for albuterol sulfate than
Medicare. We have provided evidence in this report that mail-order pharmacies and
many retail pharmacy stores charge customers less for generic versions of albuterol
sulfate than Medicare allows. Currently, the DMERCS are utilizing the median of
average wholesale prices for generic versions of albuterol sulfate to determine the
allowance amount. We believe using the median of the published average wholesale
prices does not reflect the actual wholesale pricing of albuterol sulfate that is occurring
in the marketplace.

We therefore continue to believe that HCFA should reexamine its Medicare drug
reimbursement methodologies with the goal of reducing payments for prescription
drugs, as we recommended in our earlier report.

AGENCY     COMMENTS

The HCFA concurred with our recommendation.       In exploring new strategies for
changing Medicare’s payment for prescription drugs, HCFA has constructed a
framework to calculate drug prices centrally. They are also reviewing other
approaches that could improve Medicare drug reimbursement. For the complete text
of HCFA’S comments, see Appendix A.

OIG RESPONSE

We support HCFA’S efforts to revise its drug reimbursement mechanisms to more
appropriately pay for prescription drugs covered under the Medicare program. We
believe revisions to the current payment methodologies that take into account the
actual costs of these drugs would provide significant savings to the Medicare program.




                                             ii
                    TABLE                     OF CONTENTS


                                                                                                                 PAGE



EXECUTIVESUMMARY                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCI’ION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


 �Pharmacies’    prices were less than Medicare allowances                         . . . . . . . . . . . . . . . . . . . 4


 �Buying   groups negotiated lower prices than Medicare allowed                                . . . . . . . . . . . . . 5


RECOMMENDATION                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


APPENDIX    A     Agency Comments                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

                          INTRODUCTION

PURPOSE

To assess the appropriateness of the amount Medicare allows for albuterol sulfate, a
prescription inhalation drug used in nebulizers.

BACKGROUND

A nebulizer is a type of durable medical equipment     (DME) through which

prescription drugs are administered for inhalation therapy. It consists essentially of

two components: (1) a power source such as an air compressor or ultrasonic device,

and (2) a dispensing mechanism consisting of flexible tubing, a mouthpiece, and liquid

reservoir. Patients with conditions such as asthma or emphysema may require

treatment that involves the use of a nebulizer. The nebulizer is used by placing an

inhalation prescription drug into its reservoir which is then converted into a fine spray

by the power source and inhaled by the user.


One prescription drug that is commonly used for inhalation therapy with nebulizers is

albuterol sulfate (0.083% concentration). Between January of 1994 and February of

1995, Medicare allowed $182 million for albuterol sulfate (code J7620). This

represents 68 percent of the $269 million in total Medicare allowances for all

nebulizer drugs. Medicare allowances for all nebulizer drugs have increased more

than 200 percent between 1992 and 1994.


Paymentof NebuiherDrugsin the Medicarel%ogram

Title XVIII of the Social Security Act authorizes coverage of DME under Medicare
Part B. Section 2100.5 of the Medicare Carriers Manual specifies instances involving
covered uses of outpatient prescription drugs, including drugs used in conjunction with
DME. The Manual specifies that drugs are covered under Medicare Part B as long as
the drugs are necessary for the effective use of the DME. This includes inhalation
drugs used in nebulizers.

According to 42 Code of Federal Regulations 405.517, Medicare computes an allowed
amount for drugs based on the lower of the Estimated Acquisition Cost (EAC) or the
national Average Wholesale Price (AWP). The allowed amount is the price that
Medicare and its beneficiaries pay a drug supplier. If a drug has multiple sources (as
does albuterol sulfate), the price is based on the lower of the EAC or the median of
the national AWP for all generic sources. The EAC is determined based on surveys
of the actual invoice prices paid for the drug. The AWP is determined through Z7ze
Red Book or similar price listings used in the pharmaceutical industry.

The Health Care Financing Administration (HCFA) designated four Durable Medical
Equipment Regional Carriers (DMERCS) to process all claims for durable medical


                                           1

equipment, prosthetics, orthotics, and supplies, including nebulizer drugs. Effective
October 1, 1993, the DMERCS replaced the local carriers which had previously
processed these claims. Each DMERC is responsible for determining the pricing for
albuterol sulfate in their regions based on the computation stated in the regulations.

Related Work by the ~ce     of IhspectorGeneral

In a recent report entitled, Medicare Payments for Nebulizer Drugs (OEI-03-94-O0390),
the OIG found that Medicaid reimbursed albuterol sulfate and other nebulizer drugs
at significantly lower prices than Medicare. For albuterol sulfate, Medicare and its
beneficiaries paid $34 million more in 17 States than the amount that Medicaid would
have paid. In a related report, Suppliers’ Acquzkition Costs for Albuterol Su~ate
(OEI-03-94-O0393), Medicare’s allowances for albuterol sulfate were found to
substantially exceed suppliers’ actual acquisition costs for the drug.

This inspection was conducted as part of Operation Restore Trust (ORT). The
initiative, focused in five States, involves multi-disciplinary teams of State and Federal
personnel seeking to reduce fraud, waste, and abuse in nursing homes, hospices, home
health agencies, and by durable medical equipment suppliers.

METHODOIX)GY

For the purposes of comparing pricing information, we collected data from
pharmaceutical purchasing organizations or buying groups, mail-order pharmacies, and
retail pharmacy stores. We used Medicare’s allowed amount for this comparison. The
allowed amount includes the 80 percent the Medicare program pays directly to the
supplier and the 20 percent copayment for which the beneficiary is responsible.

Since albuterol sulfate (0.0839% concentration) is a multiple source drug with both
brand and generic versions, the DMERCS base their reimbursement on the lower of
the estimated acquisition cost (EAC) or the median of the national average wholesale
price (AWP) for all generic sources. At the present time, the four DMERCS base
their reimbursement allowance on the AWP for the generic sources of albuterol
sulfate. Due to the fact that Medicare uses the prices of generic drugs to compute
reimbursement for albuterol sulfate, we compared Medicare’s reimbursement amount
with the prices that buying groups negotiated or pharmacies charged for the generic
versions of albuterol sulfate.

The pricing for albuterol sulfate, during the time of our beginning survey work in April
1995, was $0.43 per milliliter in three DMERCS and $0.40 in one DMERC. Since 90
percent of the albuterol sulfate paid for by the DMERCS in 1994 was in the three
DMERCS with reimbursement of $0.43, we believe it is fair to use this single price for
comparison purposes. The allowance for albuterol sulfate can be updated on a
quarterly basis by the DMERCS. Since the time of our inspection work, one DMERC
has increased the allowance amount, one has decreased the allowance amount, and



                                           2

two remain at $0.43. We have chosen to use $0.43 as the Medicare allowance since
that was the amount that was in effect at the start of our data collection.

Surveyof BuyingGroupsandMail-OrderPharmacks

Using a standardized data collection instrument, we obtained pricing information on
albuterol sulfate from buying groups and mail order pharmacies. We surveyed five
buying groups which were considered prominent within the industry. The groups
ranged in size from 970 to 2500 member stores nationwide. Buying groups negotiate
prices for prescription drugs from drug manufacturers/suppliers.  Pharmacies that
belong to the buying groups are able to purchase drugs based on these negotiated
prices. We also selected five of the largest mail-order pharmacies that did not require
customers to be a member of a particular insurance plan but would service any
eligible person. However, for one of the mail-order pharmacies, the customer had to
be a member of a senior citizen organization and the membership fee for joining the
organization was factored into the price. We also obtained any additional fees such as
shipping and handling or membership fees that might be charged by the mail-order
pharmacies. We factored these charges into the prices.

Surveyof RetailPharmacyStores

Using a standardized data collection instrument, we contacted retail pharmacy stores
in four States to determine their prices for albuterol sulfate. We purposefully selected
four States (California, Florida, Missouri, and North Carolina) for which statewide
information on pharmacies was available through our Office of Audit Services (OAS).
For each State, we randomly selected 35 retail chain pharmacies. Ninety-six percent
of the pharmacies in our survey (134 of 140) provided information to us. Seventy-
eight percent of the retail pharmacies (109 of 140) provided us with prices for the
generic versions of albuterol sulfate.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                          3

                                                    FINDINGS•

MANYP HARMACIES SURVEYED                                               CHARGED CUSTOMERS LESS FOR
GENERIC ALBUTEROL SULFATE                                              THAN MEDICARE ALLOWED.

A customer would pay less than Medicare for albuterol sulfate in more than half of
the retail stores surveyed and in all of the mail-order pharmacies contacted.

More thanhay of retailpharmaciesSLUVeyed
                                       chtugedcustomtmlessfor genericalbuterol
sulfatethanMedicareallowed

Fifty-five percent of retail pharmacy stores (60 of 109) charged less for generic
versions of albuterol sulfate than the $0.43 per milliliter that Medicare allowed. The
chart below summarizes the prices that pharmacies charged for albuterol sulfate.


                                  Many Pharmacies’ Generic Prices For
                                    Albuterol Sulfate Are Less Than
                                       Medicare Reimbursement
                        Percent of Pharmacle8
                 30%                                                                                                  ... . . .......................
                        '............................................................................................27%
                        1

                 25%

                 20%

                 15%

                 1o%

                   6%

                   nw

                   “‘“ $0.30      or Le$e 0.91-0.94                   0.95-O.9e             0.99-0.42             0.4S-0.46         $0.4e     or More

                                                       Albuterol Sulfate Price Per Milliliter

               Medloare Allowance = $0.49
               eouroo   1995 Retell Phermmy Survey




Many of the pharmacies’ prices were significantly less than the amounts Medicare and
its beneficiaries paid for albuterol sulfate. Sixteen percent of pharmacies charged at
least 30 percent less for generic versions of albuterol sulfate than Medicare would
have allowed for the same drugs. Eleven percent of pharmacies had prices between
20 and 30 percent less than Medicare. Almost one-fifth of pharmacies (19 percent)
charged between 10 and 19 percent less than the Medicare allowance of $0.43. In
addition, more than one-third of pharmacies in our survey (39 percent) provide a
further discount to senior citizens purchasing prescription drugs.




                                                                             4

All five mad-orderphazrnacies
                            chargedless thanthe Medicareallowancefor albuteml
sulfate.

All five of the mail-order pharmacies charged their customers less for albuterol sulfate
then Medicare and its beneficiaries paid for albuterol sulfate. Four of these
pharmacies’ charges ranged from $0.38 to $0.42, or between 2 to 12 percent less than
Medicare allowances per milliliter of drug. One of them charged only $0.20, or 53
percent less. If a Medicare beneficiary received 375 milliliters of albuterol sulfate per
month for inhalation therapy, Medicare and the beneficiary would save anywhere from
$4 to $87 a month if Medicare based its reimbursement on the prices charged by these
mail order companies. The savings to Medicare and its beneficiaries could be even
greater since four of the mail-order companies offer lower prices when larger volumes
of drugs are purchased. For the example used above of 375 milliliters of albuterol
sulfate, these pharmacies would have charged an additional 2 to 20 percent less per
milliliter.

ALL F~  BUYING GROUPS SURKt?YEDHAD NEGOTL41ED PMCES
SUBST~LYLOmR        THAN MEDICARE RHMBURSEMENT FOR
ALBUTEROL SULFATE.

The generic drug prices that five buying groups negotiated ranged from 56 to 70
percent less than the $0.43 Medicare allowed per milliliter of albuterol sulfate. The
thousands of pharmacies that are members of these buying groups purchase albuterol
sulfate for the prices listed in the table below. These prices were significantly lower
than the average wholesale prices for generic drugs that the DMERCS had been using
to establish the pricing for albuterol sulfate.

                    Price for Generic Version of Albuterol Sulfate

         II          Type of Payer               I      Price per milliliter           II


         II                                                 $0.13/$0.151
                                                                                       I
         II
         II
                                                 I
                                                 I
                                                                $0.16                  II
                                                                                       II
         IIPharmaceutical
         II
                            Buying Groups        I
                                                 I
                                                                $0.16                  II
                                                                                       II

         II
         II
                                                 I
                                                 t
                                                                $0.18                  II
                                                                                       II
         II                                      I          $0.18/$0.191               II
         1 Providedprices for more than one manufacturerof genericalbuterol sulfate.

The buying groups were able to offer lower drug purchase prices to their member
pharmacies because they negotiate prices directly with drug manufacturers/suppliers.
The member pharmacy would then purchase the prescription drug at the negotiated
price plus a wholesaler upcharge. The upcharge is a percentage of the negotiated
price that is applied to their members’ purchases. The upcharges that members of


                                             5
these five buying groups paid ranged from 3 to 6 percent. The prices in the table
include these upcharges and thereby represent a pharmacy’s total wholesale purchase
price for one milliliter of albuterol sulfate. Therefore, the average wholesale price
used to determine Medicare’s allowance for albuterol sulfate was more than double
the wholesale price paid by thousands of the buying groups’ member pharmacies.




                                         6

                      RECOMMENDATION

We believe the findings of this report complement and reinforce those of our earlier
report, Medicare Payments for Nebulizer Drugs, by providing evidence that Medicare’s
allowance for nebulizer drugs may be inappropriately high. In the earlier report, we
found that Medicaid State agencies were reimbursing less for albuterol sulfate than
Medicare. We have provided evidence in this report that mail-order pharmacies and
many retail pharmacy stores charge customers less for generic versions of albuterol
sulfate than Medicare allows. Currently, the DMERCS are utilizing the median of
average wholesale prices for generic versions of albuterol sulfate to determine the
allowance amount. We believe using the median of the published average wholesale
prices does not reflect the actual wholesale pricing of albuterol sulfate that is occurring
in the marketplace.

We therefore continue to believe that HCFA should reexamin e its Medicare drug

reimbursement methodologies with the goal of reducing payments for prescription

drugs, as we recommended in our earlier report.


For our readers’ convenience, we repeat here the options contained in our prior

report for changing Medicare’s payment for prescription drugs.


Discounted Wholesale Price


Many State agencies use a discounted AWP to establish drug prices. Medicare should

have a similar option. Medicare could base its drug payment on the lower of a

discounted AWP or the median of the AWP for all generic sources, whichever results

in the lower cost to Medicare and its beneficiaries. To implement this

recommendation, HCFA would have to revise Medicare’s claims coding system which

does not identifj the manufacturer or indicate if the drug is a brand name or a generic

equivalent, information that is needed to discount the AWP and obtain a rebate for a

specific drug. Medicaid uses the National Drug Code (NDC) in processing drug

claims. The NDC identifies the manufacturer and reflects whether the drug is a brand

name or a generic equivalent.


Manufacturers’   Rebates


Medicare could develop a legislative proposal to establish a mandated manufacturers’

rebate program similar to Medicaid’s rebate program. We recognize that HCFA does

not have the authority to simply establish a mandated manufacturers’ rebate program
similar to the program used in Medicaid. Legislation was required to establish the
Medicaid rebate program, and would also be required to establish a Medicare rebate
program. We have not thoroughly assessed how a Medicare rebate program might
operate, what administrative complexities it might pose, or how a Medicare rebate
program might differ from a Medicaid rebate program. We believe, however, the
legislative effort would be worthwhile. The same manufacturers that provide rebates


                                            7

to Medicaid make the drugs that are used by Medicare beneficiaries and paid for by
the Medicare program.

Competitive Bidding

Medicare could develop a legislative proposal to allow it to take advantage of its
market position. While competitive bidding is not appropriate for every aspect of the
Medicare program or in every geographic location, we believe that it can be effective
in many instances, including the procurement of drugs. Medicare could ask
pharmacies to compete for business to provide Medicare beneficiaries with
prescription drugs. All types of pharmacies could compete for Medicare business,
including independents, chains, and mail-order pharmacies.

Inherent Reasonableness

Since Medicare’s guidelines for calculating reasonable charges for drugs result in
excessive allowances, the Secretary can use her “inherent reasonableness” authority to
set special reasonable charge limits. If this option is selected, however, it will not be
effective unless the Secretary’s authority to reduce inherently unreasonable payment
levels is streamlined. The current inherent reasonableness process is resource
intensive and time consuming, often taking two to four years to implement. Medicare
faces substantial losses in potential savings--certainly in the millions of dollars--if
reduced drug prices cannot be placed into effect quickly.

Accmisition Cost

Medicare could base the payment of drugs on the EAC. The DMERCS currently
have this option; however, HCFA has been unsuccessful in gathering the necessary
data to fully implement it. Once the problem of gathering the necessary data is
overcome, the use of the EAC would result in lower allowed amounts. A variation of
this option is to use actual rather than estimated acquisition cost.

AGENCY     COMMENTS


The HCFA concurred with our recommendation to reexamine Medicare’s drug
reimbursement methodologies with a goal of reducing payments. In exploring new
strategies for changing Medicare’s payment for prescription drugs, HCFA has
constructed a framework to calculate drug prices centrally. They have also developed
a crosswalk between Medicare’s current coding system and the National Drug Codes
(NDCS) to enable claims processing using the NDC. In addition, HCFA is examining
the use of competitive bidding for nebulizers and associated drugs under its
demonstration authority.

The HCFA agreed with our concerns about invoking the inherent reasonableness
authority and stated that it appreciated the OIG’S work in this area. The HCFA is



                                            8

currently addressing this issue through the regulatory process.   The full text of HCFA’S
comments are presented in Appendix A,

OIG RESPONSE


We support HCFA’S efforts to revise its drug reimbursement mechanisms to more
appropriately pay for prescription drugs covered under the Medicare program. We
believe revisions to the current payment methodologies that take into account the
actual costs of these drugs would provide significant savings to the Medicare program.




                                           9

APPENDIX     A




AGENCY COMMENTS




     A-1
     -,, ..*,,
  ~s‘            ~.



        $
 .
$                        DEPARTMENTOF HEALTH & HUMAN SERVICES                             Health Care Fmancmg Admnmstrat[on
:z
 %
   **
     %4.,-
      >
                                                                                          The Adfrunmtrator
                                                                                          Washmigton, O.C.    20ZOX




                      DATE:         MAY -3 19%

                      TO:          June Gibbs Brown
                                   Administrator

                      FROM:        Bruce C. Vladec        M
                                   Administrator     %

                      SUBJECT: Office of Inspector General (OIG) Working Drafi Reports: Appropriateness
                               of Medicare-Prescription Drug Allowance’’(OEI-03 -94-OO42O),“Suppiier
                               Acquisition CostS for Albuterol Sulfate” (OEI-03-94-O0393), “A
                               Comparison of Albuteroi S&       Prices’’(OEI-03 -94-OO392)

                      We reviewed the subject reports Concetig    Medicare payments for outpatient

                      prescription drugs. our detailed comments on the findkgs and recommendations are

                      attached for your co~idemtion. H       you for the opportunity to review and COmment on

                      the reports.


                      Attachment




                                                               A-2

                Health Care Financing Administration (HCFA) Comments on
                 office of InsDector General (OIG) Working Draft Renorts:
                “Medicare Prescription Drug Allowances.’’[0E03O949004201Ol
                      “Sutmlier Accmisition Costs for Albuterol Sulfate.”
             f’OEI-03-94-00393). and “A Comparison of Albuteroi Sulfate Prices.”
                                         (OEI-03-94-00392\


OIG Recommendation

HCFA should ree-e       its kledicue       drug reimbursement     methodologies, with a goal of
reducing payments as appropriate.

HCFA Resuonse

We concur. HCFA is examinin g ways to reduce payments for prescription drugs as
follows:

Discounted Wholesale Price

k explotig     new strategies for   C-         Medicare’s   payment for prescription   drugs, we
be   constructeda fhunework to caiculate drug prices centrally. Also, we are developing
a crosswalk between the c~nt HCFA Common Procedure Coding Systems and the
National Drug Code @DC) to process claims using the NDC.

Manufacturer’s Rebates

While the Administration included a rebate mechanism in its proposed Medicare drug
benefit in the Heaith Care Reform legislatio~ it is not an option that HCFA is currentiy
considering.

Competitive Bidding

HCFA is exploring the use     of competitive     bidding for nebuhzers and associate drugs
under its demonstration   authority.


Inherent Reasonableness

We agree and appreciate OIG’S work in this area. HCFA is addressing this issue through
the regulatory process. This process has a comment period; therefore, it requires time to
implement.




                                                   A-3

Page 2

Accmisition Cost

This option involves ioweri.ng drug payments by basing them on the estimated acquisition
cost. A 1994 sumey attempt was made by HCFA to collect the necessary data to fid.ly
implement cument regulations. The smey was not approved by the Office of
Management and Budget becme it was found to be too burdensome to pursue due to the
large number of physicians and drugs involved.

Technicai Comment

We suggest OIG review the proportion of aibuterol actually obtained through a pharmacy,
as opposed to a pharmacy selling to a d~ble medical equipment provider who in turn
sells to the Medicare patient.




                                            A-4



         —.—
